No. 20A138
IN THE SUPREME COURT OF THE UNITED STATES
GATEWAY CITY CHURCH; THE HOME CHURCH; THE SPECTRUM CHURCH,
ORCHARD COMMUNITY CHURCH; TRINITY BIBLE CHURCH,

Applicants
v.
GAVIN NEWSOM, in his official capacity as Governor of the State of
California; SANDRA SHEWRY, M.D., in her official capacity as Acting
Director of California Department of Public Health; SARA H. CODY,
M.D., in her official capacity as Santa Clara County Health Officer;
COUNTY OF SANTA CLARA,

Respondents.
To the Honorable Elena Kagan, Associate Justice of the
United States Supreme Court And Circuit Justice for the Ninth Circuit

CERTIFICATE OF SERVICE
I, Robert H. Tyler, a member of the Bar of this Court and counsel
for the amicus curiae on the accompanying Motion by Calvary Chapel

San Jose, Southridge Baptist Church of San Jose, and Advocates for
Faith & Freedom, with the concurrently filed Proposed Amicus Curiae
Brief in Support of Applicants, for Leave (1) to File the Brief and (2) to
(2) in an Unbound Format on 8-1/2 by 11-inch Paper, and (3) Do So
without Ten Days’ Notice, certify that on the 25th day of February, 2021,
I caused a copy of this motion and amicus brief to be served via overnight
service and electronically on the following:
Kevin T. Snider
Pacific Justice Institute
Post Office Box 27660
Sacramento, California 95827

ksnider@pji.org

Counsel for Applicants

Todd Grabarsky
California Department of Justice
300 South Spring Street
Los Angeles, California 90013

Counsel for Respondents
Governor Gavin Newsom and
Director Sandra Shewry

Hannah M. Keischnick
Karan S. Dhadialla
Office of the County Counsel,
County of Santa Clara
70 West Hedding Street
San Jose, California 95110

Counsel for Respondents County
of Santa Clara and Dr. Sarah H.
Cody

Joseph R. Palmore
Morrison & Foerster LLP
2100 1 Street, NEW, Suite 900
Washington, D.C. 20037

Counsel for Amici – ChurchState Scholars

Todd.grabarsky@doj.ca.gov

Hannah.kieschnick@cco.sccgov.org
Karan.dhadialla@cco.sccgov.org

jpalmore@mofo.com

Eric C. Rassbach
Counsel for Amicus – Roman
The Becker Fund for Religious
Catholic Bishop of San Jose
Liberty
1919 Penn. Avenue, NW Suite 400
Washington, D.C. 20006

erassbach@becketlaw.org

I further certify that all parties required to be served have been served.

__________________________
Robert H. Tyler
Tyler & Bursch, LLP
25026 Las Brisas Road
Murrieta, California 92562
Telephone: 951.600.2733

rtyler@tylerbursch.com

Counsel of Record for Calvary
Chapel San Jose, et al.

